*

No.

Supreme Court. U.S.
FH.ED

IN THE

AUG 0 9 2021

SUPREME COURT OF THE UNITED $T#P£Sof the clerk

NOE GERARDO MORIN

— PETITIONER

(Your Name)

vs.
BOBBY LUMPKIN,DIRECTOR,TDCJ

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

NOE GERARDO MORIN
(Your Name)
2665 PRISON RD 1
(Address)
LOVELADY, TEXAS 75851
(City, State, Zip Code)

(Phone Number)

QUESTION(S) PRESENTED
Mr.Morin alleges that the district court erred by mischaracterizing
• statements from a non-testifying witness, resulting in severe prejudice
against him. Mr.Morin was convicted, in large part, as a result of.this
misclassification. Because of this mischaracterization, Mr.Morin was
denied the ability to confront a key witness against him. This error
created a distinct slant in the weight of evidence against him. This
case thus presents the following question.
Would a reasonable jurist find error in the District Court's assessment
that hearsay statement in the case at bar was "non testimonial" according
to the standard established in Crawford v. Washington?
Mr.Morin alleges that photos shown to the jury, contrary to the trial
and district court determination, were more prejudicial than probative,
that they served no legitimate purpose in the proving of guilt. Mr.Morin
further alleges that the trial court abused it's discretion by allowing
the photos to be shown to the jury, as they served not to establish guilt,
but only to excite emotion. This case presents the following question.
Would a reasonable jurist find error in the District Court's determination
that photographs shown to the jury were more probative than prejudicial
violating Morin's right to fundamental fairness?
Mr.Morin alleges that his trial counsel was ineffective because he failed
to investigate potentially exculpatory evidence that may have had a
mitigating effect. This error may have had an adverse effect on the
trial because it speaks directly to the credibility of the state's key
witness. This case thus presents the following question.
Having reviewed the evidence, could reasonable jurists find trial counsel
ineffective for not investigating possible exculpatory impeachment
evidence included in the State's Brady Disclosure?

ii

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

• State v. Morin, No.1306502 (337th Dist.Court,Harris Co. TX,2013)
Judgment entered on September 26, 2013.
• Morin v. State,No.14-13-00889-CR, 2015WL1456184 (Tex.App.-Houston
[l4th Dist.J) Judgment entered on March 26, 2015.
• Ex parte Morin,No.WR-87,068-02(Tex.Crim.App.2016) Judgment entered
June 20, 2018.
•Morin v. Director,No.4:17-CV-2045 (USDC, Southern Dist. TX,
Houston Div.,) Judgment entered Spetember 13, 2019.
• Morin v. Director,No.19-20715 (USCA 5th Cir. 2019) Judgment
entered March 24, 2021.

iii

V

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

7

14

CONCLUSION

INDEX TO APPENDICES
APPENDIX A

Decision of United States Court of Appeals 5th Cir.

APPENDIX B

Decision of the United States District Court

APPENDIX C

Decision of the Texas Court of Criminal Appeals

APPENDIX D
APPENDIX E
APPENDIX F

iv

TABLE OF AUTHORITIES CITED
CASES
PAGE NUMBER
10,11
Ary v. State, 2020 Tex.App. LEXIS 8668 (Tex.App.2020)....
1
Ex Parte Morin, WR-87,068-02 (Tex.Crim.App.2016)................
12
Giglio
U.S.,92 S.Ct.763(1972)
..........................................
12
Graves v. Dretke, 442F.3d 334(5thCir.2006) ..........................
7,8
McCarley v. Kelly,759F.3d 535(6thCir.2014)
......................
1
Morin v. Davis,4:17-cv-02045(USDC,TX 2019) ..........................
1
Morin v. Lumpkin, No.19-20715(5thCir.2021)............................
Paris v. Rivard,105 F.Supp.3d701(USDC,Mich.2015) ............
7
9
Pointer v. Texas,85 S.Ct.1065(1965) ........................................
9
Russeau v. State,171 SW3d 871(Tex.Crim.App.2005)
..........
9.
Ryan v. Miller,303 F.3d 231(2ndCir.2002) ..............................
12
Tice v. Johnson,647F.3d 87(4thCir.2011)
............................
9
United States v. Alvarado-Valdez,521F.3d 337(5thCir2008)
11
United States v. Beechum,582F.2d 898(5thCir.1978)
........
11
United States v. Plaza,826Fed.Appx.60(2ndCir.2020)............
Wiggins v. Smith,123S.Ct.2527(2003) ........................................
13

STATUTES AND RULES
U.S. CONST. VI
U.S. CONST. XIV

3
3

................
............ .

OTHER

v

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix —
the petition and is

[ ] reported at Morin v. Lumpkin, No. 19-20715 (5th Cir.)

to

. or

[ ] has been designated for publication but is not yet reported; or,
[x ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B

[ ] reported at Morin v. Davis, 4;17-cv-02045
; or,
[ ] has been designated for publication but is not yet reported; or,
lx ] is unpublished.
[x] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix JQ___ to the petition and is
[ ] reported at EX PARTE MORIN, WR-87,068-02
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[ x] For cases from federal courts:
The d^eon which the United States Court of Appeals decided my case
was
Ik ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
[ xl An extension of time to file the petition for a writ of certiorari was granted
to and including August 24,2021
(date) on May 19, 2021
(date)
in Application No. ___A_______
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix
@

June 20,2021

[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The following statutory and constitutional provisions are involved
in this case.
U.S. CONST., AMEND. VI
In all criminal prosecutions, the accused shall enjoy the right to
a speedy and public trial, by an impartial jury of the State and district
wherein the crime shall have been committed, which district shall have
been previously ascertained by law, and to be informed of the nature
and cause of the accusation; to be confronted with the witnesses against
him; to have compulsory process for obtaining witnesses in his favor,
and to have the Assistanec of Counsel for his defense.
U.S. CONST., AMEND.XIV
Section 1. All persons born or naturalized in the United States,
and subject to the jursidiction thereof, are citizens of the United
States, and of the State wherein they reside. No State shall make or
enforce any law which shall abridge the privileges or immunities of
citizens of the United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law; nor deny
to any person within its jurisdiction the equal protection of the laws.

\

3

STATEMENT OF THE CASE
On September 26 2013 Petitioner Noe Gerardo Morin (Morin) was found
guilty of murder and sentenced to life in TDCJ. The State offered no
direct evidence that Morin was the person who shot the victim Mario
Thomas (Thomas) nor was there a murder weapon that connected the Pet­
itioner with the murder.
At trial over a defensive objection the trial court admitted a harm­
ful hearsay statement of an unidentified, non-testifying witness. This
inadmissible hearsay statement was bolstered by being offered through
the arresting officer in Officer Glover (Ofc.Glover). Officer Glover
and the statement all accused Morin of Murder.
The trial court abused her discretion violating Morin's right to
fundamental fairness by admitting gruesome photos of Thomas' arm and
part of his face (both detached). The photos were erroneously deemed
more probative than prejudicial.
Trial Counsel Steve Greenlee had in his possession prior to trial
the State's Brady Disclosure. In this disclosure there are statements
made by Helen Burkes. Ms.Burkes' statements were beneficial to any defense
Morin could muster but were not investigated by Greenlee nor a hired
investigator. Greenlee was ineffective for not impeaching nor inves­
tigating any witnesses regarding the information contained in the State's
Brady Disclosure.
Morin appealed to the Fourteenth Court of Appeals who in turn affirmed
the judgment and conviction on March 26, 2015. Morin did not file a
PDR on advice from privately retained counsel. Morin filed a state
application for writ of habeas corpus on April 18, 2016. On June 20,
2018 the Texas Court of Criminal Appeals (CCA) denied his application
without written order on the findings of the trial court (May 24, 2018)
without a hearing.
Morin filed a protective federal habeas petition under 28 U.S.C.
§ 2254 on July 30, 2017. The court stayed the case while Morin exhausted
his state remedies. After the stay was lifted, and with leave of the
United States District Court (USDC),.he filed an amended petition on
August 23, 2018. On September 13, 2019 the USDC denied Morin's appli­
cation § 2254. Morin timely filed notice of appeal to the United States
Court of Appeals for the Fifth Cirucit (USCA 5th Cir.) in No.19-20715
5.

that was DENIED on March 24, 2021 with his motion to proceed In Forma
Pauperis GRANTED on the same day.
Morin now timely presents this Writ of Certiorari to this Honorable
United States Supreme Court and will show the following:

6.

REASONS FOR GRANTING THE PETITION
I. WOULD A REASONABLE JURIST FIND THAT THE DISTRICT
COURT'S ASSESSMENT OF THE HEARSAY STATMENT BEING
"NON TESTIMONIAL" STANDARD IN CRAWFORD v. WASHINGTON?
Morin suggests this Honorable Court find the admission of a hearsay
statement testified to by a "credible" Police Officer was "testimonial." .
Morin believes the trial court abused her discretion by allowing the
hearsay statement of an unidentified, non-testifying witness accusing
him of a crime. Officer Michael.Glover (Ofc.Glover) testifies to the
jury on re-direct (4RR 71-71)2:
Q: When this person yelled this information out to you, were they
calm or excited? A: Probably a little excited, but they weren't
speaking badly. Q: What did this person say? Mr. Greenlee: Again,
objection your Honor. The Court: The objection will be overruled.
You may proceed. Q: What did the witness say? A: As I remember
correctly, he said: That's your man, he is getting away. Q: This
was a separate bystander milling with the crowd, correct? A: Yes
ma'am. Q: And that led you to further suspicion of the defendant?
A: Yes ma'am.
Morin cites Paris v. Rivard,105 F.Supp.3d 70l(USDC,Eastern District
of Michigan, Southern Division 2015) in relevant part:
"Where testimonial evidence is at issue...the Sixth Amendment demands3
what the common required: unavailability and a prior opportunity tor
cross-examination." Crawford v. Washington,541 U.S. 36(2004). In
other words, the Sixth Amendment "contemplates that a witness who
makes testimonial statements admitted against a defedant will ordinar­
ily be present at trial for cross-examination, and that if the witness
is unavailable, his prior testimony will be introduced only if the
defendant had a prior opportunity to cross-examine him." Giles v.
California,554 U.S.353,358(2008)(citing Crawford,541 U.S. at 68). ..
Statements to the police are testimonial when1 the circumstances
objectively indicate that "the primary purpose of the interrogation
is to establish or prove past events3 potentially relevant to later
criminal prosecution."
Key words being "past event3," Morin continues with McCarley v.
Kelly, 759 F.3d 535(6th Cir.2014) in pertinent:
"Statements are nontestimonial when made in the course of police
interrogation under circumstances objectively indicating that the
primary purpose of the interrogation is to enable police assistance
2 Reporter's Record will be reflected by volume number followed by
"RR" followed by page number(s) and lines references if any, e.g.,
4RR 71,3-12. Clerk's Record will be referred to as "CR "
3 My emphasis throughout memorandum,.e.g. hearsay3

7_.<

to meet an ongoing emergency.3 They are testimonial when the cir­
cumstances objectively indicate there is no such ongoing emergency,
and that the primary purpose of the interrogation is to establish
or prove past events potentially relevant to later criminal pro­
secution ."
•Ongoing (Random House College Dictionary): continuing without
termination or interruption.
•Emergency (Black's Law Tenth Edition):
1. A sudden and serious event or an unseen change in circumstances
that calls of immediate action to avert, control, or remedy harm.
2. An urgent need for relief or help.
While both "ongoing" and "emergency" could be applied to the situation
when Ofc.Glover was called to the scene, neither can be applied to the
circumstance into which he arrived. The emergency3 which Ofc.Glover
had responded to ended in murder prior to his arrival. He testified
that he heard an unidentified individual say, "That's your man, he's
getting away." There is no "stranger danger" alert, the streets are
crowded with people and Ofc.Glover's weapon is not drawn. These cir­
cumstances objectively indicate that the emergency had been terminated.
What Ofc.Glover heard, therefore, was indeed testimonial, as its primary
purpose was to establish a potentially relevant past event. The predicate,
"he's getting away," establishes the subject event in the past. There
was3 an emergency, Ofc.Glover was summoned, Thomas was murdered prior
to Glover's arrival at the scene. This is known because, as Glover
arrived, he is told, "That's your man, he's getting away[,]" clearly
indicating the act of murder was a past event. Had there been an ongoing
emergency, for unknown reasons the unidentified individual might have
said something like, "There they are, all tangled in a knot." Such a
statement as this would have been indicative of an ongoing emergency
situation and any such statement then would not have been testimonial.
The combination of the verbs "are" and "tangled" places the scene in
the present.
Morin keeping with McCarley v. Kelly,759 F.3d 535(6th Cir.2014):
"The Court went on to clarify that the Confrontation Clause applies
to informal, as well as formal, prior testimony. Id. @826 ("In any
event, we do not think it conceivable that the protections of the
Confrontation Clause can readily be evaded by having a note-taking
policeman recite the unsworn hearsay testimony of the declarant,
instead of having the declarant sign a deposition.") The fruits of
an interrogation, "whether reduced to a writing signed by the

8

declarant or embedded in the memory (an perhaps notes) of the in­
terrogating officer [are] testimonial. 3 II Id.
By allowing the inadmissible hearsay statement in through a "credible"
witness in Ofc.Glover the statement held more weight and bolstered
Glover's testimony that Morin was guilty of murder. The Court abused
her discretion violating Morin's 6th and 14th Amendments as cited in
Russeau v. State,171 S.W.3d 87l(Tex.Crim.App.2005); Pointer v. Texas,
85 S.Ct.1065(1965):
"This procedural guarantee is applicable in both Federal and State
prosecutions and bars the admission of testimonial statements of a
witness who does not appear at trial."
The erroneous admission was a denial of Morin's fundamental fairness
and there is a strong probability that the hearsay influenced the
jury's verdict. Morin emphasizes what is said in relevant part in United
States v. Alvarado-Valdez,521 F.3d 337,34l(5th Cir.2008):
"A defendant convicted on the basis of constitutionally inadmissible
Confrontation Clause evidence is entitled to a new trial unless it
was harmless in that there was [no] reasonable possibility that the
evidence complained of might have contributed to the conviction."
(quoting Chapman v. California,386 U.S. 18,24(1962)).
What could be better for the State an officer sworn to protect and
serve and so happened to be the one that apprehended Morin, to testify
what a non-testifying witness said? Implying that Morin was guilty before
he was even taken into custody is what Ofc.Glover did in front of the
jury for the State. In Ryan v. Miller,303 F.3d 23l(2nd Cir.2002):
"A defendant has a right not to have an incriminating, hearsay state­
ment or a non-testifying witness admitted against him. Accusations
that have an injurious effect on the jury's verdict is a violation
of a defendant's substantial rights."
The unidentified person that supposedly said "That's your man, he's
getting away [,]" did not3 testify at trial. This Honorable Court should
find the hearsay statement "testimonial," and not harmless. Morin asks
for relief in remand for new trial at least, at best a vacate of judg­
ment .
II. WOULD A REASONABLE JURIST FIND THAT THE DISTRICT
COURT'S FINDINGS ERRONEOUS, AND THAT THE PICTURES
WERE HIGHLY PREJUDICIAL AND EXTREMELY INFLAMMATORY?
The USDC found no error in the state court's determination that
photographs of the victims severed head and arm were more probative
than prejudicial. They also deemed if the ruling was in error, Morin
did not demonstrate a violation of constitutional magnitude.
9.’

The case at bar is not a death-penalty case. The state charged Morin
with Murder. The state only needed to prove murder, nothing else. There
was absolutely no need to show the jury a picture of "part of his face[,]"
(6RR24-25, St."EX 186") to prove murder. Other than to inflame the jury's
mind there is no need to show them "part of his arm and then his head."
(id; St."EX 187"). "The trial court found generally that the photos
were 'probative [of] the facts before, during, and after, to determine,
you know, the mindset of the defendant and what was going on.' " (See
M&R @13). Would these photos been "probative" at the punishment phase,
more than likely, but not at guilt innocence. How did these photos help
the State's case? How did Morin's "mindset" help determine guilt of
murder?
A trial is not fair if a panel of juror's base their verdict on an
emotional one. Morin avers that these photos have no relevance to the
manner, means or cause of death, they only show the gruesomeness of what
happened after3 the murder. The decendant died of a gunshot wound to
the head (7RR99) not by his arm or face being cut off and put in a
garbage bag.
Rule 404(b) of the Texas Rules of Evidence provides in pertinent
part as follows: (l) Prohibited Uses. Evidence of a crime, wrong, or
other act is not admissible to prove a persons character3 in order to
show that on a particular occasion the person acted in accordance with
the character. (2) Permitted Uses;...This evidence may be admissible
for another purpose, such as proving motive, opportunity, intent, pre­
paration, plan, knowledge, identity, absence of mistake, or lack of
accident. Ary v. State,2020 Tex.App.LEXIS 8668(Tex.App.-Beaumont [9th
Dist.]).
The trial court abused her discretion in turn violating Morin's
right to fundamental fairness. She violated Morin's right to a fair
trial and right to due process. She found "probative [of] the facts
before, during, and after, to determine, you know, the mindset of the
defendant and what was going on." (D.E.24-2106-7). This is specifically
what Texas Rules of Evidence 404(b)(1) says is inadmissible, and she
was in no zone of reasonable legal theory of law.

10.

#

Morin citing Ary v. State:
"Once a trial court determines that extraneous offense evidence is
admissible under Rule 404(b), the trial court must, upon proper ob­
jection by the opponent of the evidence, weigh the probative value
of the evidence against its potential for unfair prejudcial. When
undertaking a Rule 403 analysis, the trial court must balance: 1)
the inherent probative force of the proffered item of evidence along
with, 2) the proponents need for that evidence against, 3) any tendency
of the evidence to suggest decision on improper basis, 4) any ten­
dency of the evidence to confuse or distract the jury from the main
issues, 5) any tendency of the evidence to be given undue weight
by a jury that has not been equipped to evaluate the probative force
of the evidence, and 6) the likelihood that presentation of the evi­
dence will consume on inordinate amount of time or merely repeat
evidence already admitted." Gigliobianco v. State,210S .W.3d 637,64142(Tex.Crim.App.2006); See also Erazo v. State, 174 S.W.3d 487,489
(Tex.Crim.App.2004).
Morin compares what is required to what happened:
1) There was absolutely no probative force to post these pictures.
2) The State using theatrics only to inflame the jury's emotions
and there was no need to present either picture to prove murder.
3) The Court fails here as the jury's decision was determined on
an improper basis.
4) Did this evidence distract the jury's attention, 100% YES (they
were crying, closing their eyes, and heads were turning away).
5),6) Weren't even considered during the abuse of discretion.
However, if the only value of extraneous offense evidence is to
show character conformity, the balancing test requierd by Rule 403 is
obviated becaue "rule makers hav[e] deemed that the probativeness of
such evidence is so slight as to be 'Substantially outweighed' by the
danger of unfair prejudice as a matter of law. United States v.
Beechum,582 F.2d 898 (5th Cir.1978).
The USDC states this claim was not cognizable on habeas citing Estelle
v. McGuire,502 U.S. 62(1991) but this conflicts and seems misconstrued
with .what's said in USA v. Plaza,826 Fed.Appx.60 (2nd Cir.2020):
"We review a district court's evidentiary rulings under a defer­
ential abuse of discretion standard, and we will disturb an evid­
entiary ruling only where the decision to admit or exclude evidence
manifestly erroneous." U.S. v. Litvak,889 F.3d 56,67(2nd Cir.
2018)(internal quotation marks omitted). Moreover, even if we find
that the District Court abused its discretion, we will not reverse
if the error made was harmless." U.S. v. Mercado,573 F.3d 138,141
(2nd Cir. 2009).
The trial court clearly abused her discretion allowing the jury to
convict on emotion more than fact. This issue deserves review and should
11.

t'

cause this Honorable Court to remand for a new trial at least, at best
vacate sentence and conviction.
III. AFTER REVIEWING THE EVIDENCE, COULD REASONABLE
JURISTS FIND TRIAL COUNSEL INEFFECTIVE FOR NOT
INVESTIGATING POSSIBLE EXCULPATORY IMPEACHMENT
EVIDENCE INCLUDED IN THE STATE'S BRADY DISCLOSURE?
If a reasonable jurist knew that State's witness Helen Burkes re­
vealed to the prosecution before putting Morin on trial for murder that
her sister Lucinda Burkes stated the following (M&R @ 8):
• Lucinda and her friend Mae Land Kirkwood, were stealing drugs and
money from Morin.
• Morin confronted Lucinda and Kirkwood about the thefts, and they
told Morin that Thomas was responsible.
• After telling Morin that Thomas was stealing from him,. Morin "trans­
ferred his anger to "Thomas" and "wanted to confront" Thomas.
• "They heard the two gunshots sometime later that night."
• Lucinda had given Morin a gun "at some point."
and that State's witness Adrian Bias helped Morin dismember Thomas' body
would they believe Greenlee to be ineffective for failing to investigate
exculpatory, mitigating and impeaching evidence?
The information came from a State's witness' sister that was not called
to the stand to tell the jury the information. This evidence may have
been arguably exculpatory clearly mitigating since it directly affected
the reliability and credibility of the State's key witnesses. "Brady
applies equally to evidence relevant to the credibility of a key witness
in the State's case against a defendant." Graves v. Dretke,442 F.3d 334
(5th Cir. 2006); Giglio v. United States,92 S.Ct.763(1972).
The USDC says "[a]t most, fairminded jurists could disagree that those
theories are inconsistent with Supreme Court precedent."(See M&R @ 9).
The USDC does not cite any3 Supreme Court precedent to corroborate their
conclusions. The USDC failed to liberally construe the entire argument
in the fact that the mitigating evidence Greenlee failed to investigate
could have lessened Morin's sentence, making the results of the proceeding
unreliable.
Morin directs this Court to Tice v. Johnson,647 F.3d 87(4th Cir.2011)
"Strickland itself established in no uncertain terms that counsel has
a duty3 to make reasonable investigation." The record is void to any
strategy (including FFCL from the State Court) that Greenlee could use to
12.

1

subtantiate his lack of investigating.
Should Greenlee have impeached Mae Land Kirkwood, Adrian Bias or any
of the three Burkes with the info.provided by Helen Burkes the jury could
have reasonably determined any of the witnesses credibility was invalid.
The results of the trial could have been different being there was no
murder weapon found, no witnesses seen who shot Thomas, just a weak cir­
cumstantial, incredible concotion of placing blame on Morin.
Greenlee obtained funds from the trial court to have an investigator,
yet failed to commission a report or call the investigator as a witness
as to the information that was uncovered from the State's Brady Disclosure.
Citing Wiggins v. Smith,123 S.Ct.2527-2530(2003):
"Counsel retained funds for an expert but failed to commission a
report. This conduct fell short of a reasonable standard. Counsel's
failure to investigate stemmed from inattention, not strategic
judgment."
Greenlee had a duty to call Helen Burkes and impeach her regarding
her statements. Her testimony would have challenged the credibility and
reliability of the State's key witness including her own family members.
Morin has maintained his innocence of murder from the beginning and only
admits to the helping in the attempted disposal of Thomas' body. Greenlee
was deficient seven-fold depriving Morin of a fair trial, any viable de­
fenses, effective investigating and advocating.
Should this Honorable Court side with Morin and find Greenlee in­
effective, Morin asks for a new trial at least, at best a vacate of
judgment and sentence.

13.

t

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

14.,;

